                                                                    AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Georgia, Department of Natural Resources,
From July 1, 2008, Through June 30, 2010




Report No.: R-GR-FWS-0004-2011                                      July 2011
                                                                                        July 8, 2011

                                             AUDIT REPORT

Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From: for Suzanna I. Park
          Director of External Audits

Subject:    Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
            Program Grants Awarded to the State of Georgia, Department of Natural Resources,
            From July 1, 2008, Through June 30, 2010 (No. R-GR-FWS-0004-2011)

        This report presents the results of our audit of costs claimed by the State of Georgia (the
State), Department of Natural Resources (the Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$33.8 million on 54 grants that were open during State fiscal years (SFYs) ended June 30 of
2009 and 2010 (see Appendix 1). The audit also covered the Department’s compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $85,503, however, because the
Department (1) did not have adequate documentation to support in-kind contributions used as
match on four Program grants, (2) did not consistently follow Federal and State documentation
requirements for procurements, and (3) did not always charge purchase card expenditures to the
appropriate grants. We also determined that the Department improperly drew down an advance
of Federal funds, submitted late Federal financial reports, did not fully reconcile its real property
records with FWS, and did not adequately track compensatory time to prevent ineligible grant
charges.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 4 responses, as well as our comments, on the responses after the recommendations.
We list the status of the recommendations in Appendix 3.
       Please respond in writing to the findings and recommendations included in this report by
October 6, 2011. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Bill Streifel, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 4
   Audit Summary ................................................................................................... 4
   Findings and Recommendations ......................................................................... 4
Appendix 1 ............................................................................................................ 14
Appendix 2 ............................................................................................................ 16
Appendix 3 ............................................................................................................ 17
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (the Acts) 1 established the Wildlife and Sport Fish
Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of the State’s fish and game agency.
Finally, Federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements.
       •    Used State hunting and fishing license revenues solely for fish and
            wildlife program activities.
       •    Reported and used program income in accordance with Federal
            regulations.

Scope
Audit work included claims totaling approximately $33.8 million on the 54 grants
that were open during SFYs ended June 30, 2009 and 2010 (see Appendix 1). We
report only on those conditions that existed during this audit period. We
performed our audit at Department headquarters in Atlanta, GA, and its Wildlife
Resources Division’s headquarters in Social Circle, GA. We also visited five
regional offices, two field locations, three wildlife management areas (WMAs),
three fishing and boating access sites, and a fish hatchery (see Appendix 2). We
performed this audit to supplement, not replace, the audits required by the Single
Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                                                     1
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Department.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Department employees to ensure that personnel costs
       charged to the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On December 31, 2002, we issued “Final Advisory Report on Costs Claimed by
the State of Georgia Department of Natural Resources, Wildlife Resources
Division and Coastal Resources Division under Federal Aid Grants from the U.S.
Fish and Wildlife Service from July 1, 1997 to June 30, 1999” (No. 2003-E-
0008). We followed up on all eight recommendations in the report and found that
the U.S. Department of the Interior, Office of the Assistant Secretary for Policy,
Management, and Budget (PMB) considers five recommendations as resolved and
implemented and three recommendations as resolved but not yet implemented.
One of the unimplemented recommendations deals with questioned costs. The
other two regard the need to reconcile differences between the Department’s and
FWS’ real property records. We found that the records have not yet been fully
reconciled, as discussed in the Findings and Recommendations section of this
report.

On January 11, 2007, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Grants Awarded to the State of Georgia, Department of
Natural Resources, from July 1, 2003 Through June 30, 2005” (No. R-GR-FWS-


                                                                                  2
0002-2006). We followed up on all nine recommendations in the report and found
that PMB considered them resolved and implemented.

We also reviewed Georgia’s Comprehensive Annual Financial Report and Single
Audit Report for SFY 2009. Neither of these reports contained any findings that
would directly affect the Program grants.




                                                                              3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified several conditions, however, that resulted in the findings
listed below, including questioned costs totaling $85,503. We discuss the findings
in more detail in the Findings and Recommendations section.

Questioned Costs. We questioned costs totaling $85,503 because the Department
(1) did not have adequate documentation to support in-kind contributions used as
match on four Program grants, (2) did not consistently follow Federal and State
documentation requirements for procurements, and (3) did not always charge
purchase card expenditures to the appropriate grants.

Unauthorized Advance Drawdown of Federal Funds. The Department drew
down $860,000 under a Program grant even though it had not expended any
eligible costs to justify the drawdown.

Submission of Late Federal Financial Reports. Of the 54 grants included in our
review, the Department submitted 15 Federal financial reports, representing about
$7 million in Federal funds, an average of 95 days late.

Unreconciled Real Property Records. The Department’s and FWS’ records of
land purchased with Program grant funds show significant differences because
they have not been reconciled.

Inadequate Tracking of Compensatory Time. The Department did not have
controls in place to prevent employees from charging compensatory time to the
Program grants for work originally performed on ineligible activities.

Findings and Recommendations
A. Questioned Costs — $85,503

1. Unsupported In-Kind Contributions — $72,382

Under the Program, States must use matching (non-Federal) funds to cover at
least 25 percent of costs incurred in performing projects under the grants. The
State’s matching share of costs on 13 Program grants was partially composed of
noncash (“in-kind”) contributions. We reviewed 11 grants that included in-kind
contributions consisting of (1) indirect costs donated by two universities for
research projects and studies and (2) the value of hours donated by volunteer
instructors for hunter education courses. Our review disclosed unsupported in-
kind contributions associated with four Program grants. Specifically, the


                                                                                  4
Department could not provide any documentation to substantiate the donated
indirect costs and did not ensure that volunteer instructors certified their
timesheets in a manner similar to Department employees.

The Code of Federal Regulations (CFR) outlines documentation requirements for
in-kind contributions. According to basic guidelines on cost principles outlined in
2 CFR § 225, Appendix A, subsection C.1.j, for a cost to be allowable under
Federal awards, the cost must be adequately documented. In addition, 43 CFR §
12.64 (b)(6) states that third party in-kind contributions counting towards
satisfying a cost sharing or matching requirement must be verifiable from the
records of grantees and subgrantees. It further states that, to the extent feasible,
volunteer services will be supported by the same methods that the organization
uses to support the allocability of regular personnel costs.

This problem occurred because the Department did not have policies and
procedures to document support for donated indirect costs or to require volunteer
instructors to certify their time. As a result, the Department overstated the value of
its in-kind contributions on the grants listed below, resulting in a Federal share of
$35,230 and $37,152 of questioned costs for SFYs 2009 and 2010, respectively.
We are therefore questioning a total of $72,382 in unsupported costs.
                         Federal Share of Questioned Costs, SFY 2009
                   Description                  Grant Numbers and Amounts        Total
                                                      W-64-8     W-72-D-1
      Original Federal Share Claimed                  $240,000    $120,000
      Total Grant Outlays                              320,000     160,000
      Less: Unsupported In-Kind Contributions           31,017         15,956
      Revised Grant Outlays                            288,983     144,044
      Allowable Federal Share                             75%            75%
      Allowable Federal Amount                         216,737    $108,033
      Federal Share Questioned Costs                  $23,263      $11,967      $35,230


                         Federal Share of Questioned Costs, SFY 2010
                   Description                  Grant Numbers and Amounts       Total
                                                      W-64-9       W-74-1
      Original Federal Share Claimed                  $240,000     $67,724
      Total Grant Outlays                              330,075         90,299
      Less: Unsupported In-Kind Contributions           37,037         22,575
      Revised Grant Outlays                            293,038         67,724
      Allowable Federal Share                             75%            75%
      Allowable Federal Amount                         219,779         50,793
      Federal Share Questioned Costs                  $20,221      $16,931      $37,152




                                                                                          5
Recommendations

We recommend that FWS:

    1. Resolve the $72,382 of questioned costs related to unsupported
       in-kind costs.

    2. Require the Department to establish and implement policies and
       procedures requiring proper support for donated indirect costs and
       volunteer instructor hours.


Department Response
Department officials did not concur with the unsupported in-kind costs related to
university waiver of administrative costs discussed in the draft under grants
F-16-45, F-16-46, F-42-23, and F-42-24. Department officials provided support
for these costs and concurred with the remainder of the finding and will address
the recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on our review of FWS and Department responses to the draft report, we
revised the tables to exclude questioned costs relating to university waiver of
administrative costs on the fisheries grants listed above (Department Response).
However, based on the FWS response to the balance of the Unsupported In-Kind
Contributions, additional information is needed in the corrective action plan,
including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2. Ineligible Procurement Costs — $6,887

To be eligible for reimbursement under the Program, grant expenses must be
reasonable, allowable, allocable, and adequately supported. The Department was
invoiced $9,183 for labor to repair a flooded road and charged this expense to
Grant W-36-49, for Statewide wildlife development. Our review showed that:

   •   The Department could not provide documentation to demonstrate the
       accuracy of the amount charged or whether the roadwork fell within the


                                                                                    6
       scope of Grant W-36-49. For instance, the invoice charged to the grant did
       not list the number of hours worked, the labor rate used, or the location of
       the road repaired. According to 2 CFR § 225 Appendix A, subsection
       C.1.j, however, costs must be necessary and reasonable, allocable, and
       adequately documented.
   •   The Department did not obtain competitive bids for the roadwork or
       document the reasons for not seeking bids. According to the Georgia
       Procurement Manual, however, competitive bids are required for
       purchases totaling $5,000 or more. In unusual circumstances such as
       emergencies, special justifications are required.

Because Department officials did not follow Federal and State procurement
requirements, we are questioning $6,887, the Federal share of this expenditure, as
ineligible costs.

Recommendations

 We recommend that FWS:

    1. Resolve the ineligible questioned costs totaling $6,887.

    2. Require Department personnel to follow Federal and State
       procurement requirements.


Department Response
Department officials did not concur with the finding, but held that the proper
documentation had not been completed. The recommendations will be addressed
in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                  7
3. Out-of-Period Costs — $6,234

The Department issues purchase cards to employees for small purchases, such
as supplies, materials, and services. We noted that the Department charged
$6,234 to three grants for purchase card transactions made in June 2008. The
grants, however, did not become effective until July 1, 2008.

                      Grant            Federal Share
                  F-78-CDEO-4               $1,548
                  F-79-R-4                    2,508
                  W-36-48                     2,178
                  Total                     $6,234

According to 43 CFR § 12.63(a), a grantee may charge to the grant award only
those costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted. These costs were inappropriately claimed on
the Program grants because the Department’s purchase card log did not capture
the date that items were actually charged to the purchase cards. Therefore,
accounting staff claimed expenditures from June 2008 on grants that began in
July 2008, when the purchase card bill was paid. As a result, we are questioning
ineligible costs totaling $6,234 (Federal share).

Recommendations

 We recommend that FWS:

    1. Resolve the ineligible questioned costs totaling $6,234.

    2. Require the Department to improve its internal controls to ensure that
       expenditures are charged to the proper period.


Department Response
Department officials concurred with the finding and will address the
recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.



                                                                                   8
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Unauthorized Advance Drawdown of Federal Funds

Under the Program, FWS may reimburse States up to 75 percent of grant
expenditures, provided that the States first expend their required matching share
of costs. We noted, however, that the Department drew down $860,000 in Federal
funds on one grant, even though it had not incurred any matching costs to justify
this transaction.

On June 30, 2009, a large sum of the Department’s State-appropriated funds was
scheduled to lapse. Rather than return unused funds to the State’s treasury, the
Department replaced a portion of the Federal share on Grant W-36-48 for
Statewide wildlife development with State funds. As a result of this action, the
Department had excess Federal funds on hand. In the drawdown system, it
therefore credited the excess Federal funds to Grant W-36-48 and debited the next
grant segment, W-36-49, for $860,000, even though it had not yet incurred any
costs under that grant.

This situation is contrary to 31 CFR 205.15(d), which states that for programs
utilizing mandatory matching of Federal funds with State funds, a State incurs
interest liabilities if it draws Federal funds in advance and/or in excess of the
required proportion of agreed upon levels of State contributions. Therefore, the
Department is required to pay interest to the U.S. Treasury resulting from the
$860,000 advance drawdown.

Recommendations

 We recommend that FWS:

    1. Ensure the Department bases grant drawdowns on eligible costs
       incurred within the grant period.

    2. Require the Department to pay interest associated with the $860,000
       advance drawdown to the U.S. Treasury.


Department Response
Department officials concurred with the finding and will address the
recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.


                                                                                    9
OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

C. Submission of Late Federal Financial Reports

Grantees are required to file a Federal financial report within 90 days after a grant
period ends. These reports summarize grant income and expenditures and help
ensure fiscal accountability. We noted that the Department has weaknesses in its
controls over grant reporting, with a history of submitting late Federal financial
reports. Specifically, for the 54 grants included in our review, the Department
requested but did not receive reporting extensions for 15 grants, representing
about $7 million in Federal funding. Federal financial reports for these grants
were subsequently submitted an average of 95 days late.

Under 43 C.F.R. § 12.952(a)(1)(iv), Federal financial reports are due 90 days after
the end of the grant period. Extensions to this deadline may be made only when
requested by the grantee and approved by the grantor.

This issue arose because the Department did not have policies and procedures to
ensure that Federal financial reports are submitted within 90 days of the end of the
award period. Because FWS staff cannot de-obligate any remaining funds until
they receive the final Federal financial reports, late reporting could adversely
affect funding decisions on future grants.

 Recommendation

 We recommend that FWS require the Department to develop policies and
 procedures to ensure timely submissions of Federal financial reports.


Department Response
Department officials concurred with the finding and will address the
recommendation in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendation.




                                                                                   10
OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

D. Unreconciled Real Property Records

The Department and FWS each maintain records on land purchased with Program
grant funds; however, these two sets of records showed significant differences.
The Department’s land inventory identified approximately 41,907 acres with an
acquisition cost of about $5.7 million, whereas FWS’ land records listed
approximately 30,911 acres that cost about $3.9 million.

According to 50 CFR § 80.18(b)(c) and 522 FW 1.15 of the Fish and Wildlife
Service Manual, each State is required to maintain accountability and control of
all assets to assure that they are used for the purpose for which acquired
throughout their useful life. The FWS Director reiterated land management
requirements to Program participants in a March 29, 2007 letter. This letter
requested each State to maintain a real property management system that includes
a comprehensive inventory of lands and to ensure that its inventory is accurate
and complete.

Although Department officials have submitted their land inventory to FWS, the
reconciliation process has not yet been completed. As a result, the Department’s
records are not adequate to ensure that lands acquired with grant funds are used
only for their originally intended purposes.

We reported a similar condition in our prior advisory report (No. 2003-E-0008,
Assignment No. X-GR-FWS-0013-2003, Recommendations F.1 and F.2) and
recommended that FWS and the Department reconcile acreage differences for
Beaver Dam, Horse Creek, and Sapelo Island WMAs and Paradise and Marben
Public Fishing Areas. We are therefore repeating the applicable recommendations
from that report, which will be tracked under the resolution process for the prior
advisory report. During this audit, we noted additional acreage differences not
addressed by the repeat recommendations. Consequently, we are issuing a new
recommendation requiring FWS and the State to complete the reconciliation of
their real property records.




                                                                                11
Repeat Recommendations

We recommend that FWS coordinate with the Department to:

    1. Reconcile the acreage differences identified for the Beaver Dam, Horse
       Creek, and Sapelo Island WMAs and the Paradise Public Fishing Area
       and adjust the land records accordingly.

    2. Identify and agree on the number of acres used as a match for the
       Marben Public Fishing Area and ensure that the acreage is properly
       reflected in the property records of both organizations.


New Recommendation

    We recommend that FWS complete the reconciliation of its real property
    records with the State.


Department Response
Department officials concurred with the finding and will address the
recommendations in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendations.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

E. Inadequate Tracking of Compensatory Time

If employees of the Department work beyond their normal workweek, they may
be eligible to receive time off, known as compensatory time, in lieu of overtime
pay. The Department, however, does not charge compensatory time to the project
under which it was earned. Instead, when an employee uses compensatory time,
the Department allocates the leave costs to all projects on which the employee
worked during that pay period. Therefore, compensatory time could be charged to
unrelated projects and incorrect funding sources.


                                                                                12
The CFR outlines cost principles that States must follow when compensating
employees for work performed under Federal awards. According to 2 CFR § 225
Appendix A, subsections C.1.a, b, and j, allowable costs must be necessary and
reasonable, be allocable to the award only if they provide a benefit to the grant,
and be adequately supported. Furthermore, 2 CFR § 225, Appendix B, subsection
8.h(4) states, “where employees work on multiple activities or cost objectives, a
distribution of their salaries or wages will be supported by personnel activity
reports.”

This condition occurred because the Department did not have policies and
procedures to ensure that only eligible activities associated with compensatory
time are charged to the Program grants. As a result, when employees earn
compensatory time from working on non-Program activities, the Department
could improperly charge the related costs to the Program grants.

Recommendation

    We recommend that FWS ensure the Department implements policies
    and procedures so that only eligible costs associated with compensatory
    time are charged to the Program grants.


Department Response
Department officials concurred with the finding and will address the
recommendation in the corrective action plan.

FWS Response
FWS Regional officials concurred with the finding and recommendation.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                  13
Appendix 1
                          State of Georgia
                 Department of Natural Resources
              Financial Summary of Review Coverage
                July 1, 2008, Through June 30, 2010

                                              Questioned Costs
   Grant        Grant        Claimed           (Federal Share)
  Number       Amount         Costs
                                           Ineligible   Unsupported
F-16-45            $16,000       $16,000
F-16-46             16,000        16,000
F-24-36            460,000       460,000
F-24-37            576,820       833,935
F-41-24          1,163,800     1,160,372
F-41-25          1,112,160     1,077,728
F-42-23             26,668        26,667
F-42-24             26,668        26,668
F-44-21            330,000       330,000
F-44-22            340,000       289,122
F-65-11            171,000       171,000
F-65-12            171,000       224,529
F-68-7             493,336       493,336
F-68-8             560,000       490,305
F-69-7             160,000       160,000
F-69-8             160,000       230,409
F-71-7             866,668       866,668
F-71-8           1,400,000     1,635,720
F-72-7             933,336       933,336
F-72-8           1,200,000     1,779,264
F-73-7             254,000       254,000
F-73-8             333,336       389,522
F-74-7           1,100,000     1,100,000
F-74-8           1,100,000     1,258,290
F-78-CDEO-4        143,802       112,240     $1,548
F-78-CDEO-5        112,225       110,841
F-79-R-4         1,982,180     1,629,952      2,508
F-79-R-5         1,580,400     1,375,974
F-81-R-1           374,620       304,727
W-6-64              80,000       155,638
W-6-65              80,000       161,160
W-28-49             23,700        24,600
W-28-50            $23,700       $23,400
W-36-48          3,451,259     5,199,367      2,178
W-36-49          4,372,905     5,439,965      6,887



                                                                  14
                       State of Georgia
              Department of Natural Resources
           Financial Summary of Review Coverage
             July 1, 2008, Through June 30, 2010

                                            Questioned Costs
   Grant     Grant         Claimed           (Federal Share)
  Number    Amount          Costs
                                         Ineligible   Unsupported
W-55-18       $109,000       $110,216
W-55-19         119,000         93,479
W-57-18         130,000        211,516
W-57-19         130,000        230,380
W-59-14         533,333        793,495
W-59-15         533,333        613,780
W-64-6          320,000        320,000
W-64-8          320,000        320,000                  $23,263
W-64-9          320,000        330,075                   20,221
W-68-R-3         56,000         73,771
W-68-R-4         56,000        103,078
W-69-R-3         37,000         45,588
W-69-R-4         37,000         45,729
W-70-R-1         54,699         75,306
W-71-M-1      1,300,462      1,300,462
W-72-D-1        160,000        160,000                   11,967
W-72-D-2        100,000        102,443
W-73-E-1        550,000
W-74-R-1         90,299         90,299                   16,931
TOTAL      $30,151,709    $33,780,352    $13,121       $72,382




                                                                  15
Appendix 2
                State of Georgia
         Department of Natural Resources
                  Sites Visited

             Department Headquarters
                     Atlanta

               Division Headquarters
                    Social Circle

                   Region Offices
                Coastal – Brunswick
               Northwest – Armuchee
              South Central – Fitzgerald
                Southwest – Albany
              West Central – Fort Valley

                   Field Locations
                    Richmond Hill
                      Waycross

             Wildlife Management Areas
                      B.F. Grant
                    Berry College
                     Cedar Creek

         Fishing and Boating Access Sites
            Dennis Station Access Area
                  Dixon Landing
                   Oconee River

                   Fish Hatchery
                      Cordele




                                            16
Appendix 3
                              State of Georgia
                     Department of Natural Resources
              Status of Audit Findings and Recommendations


Recommendations               Status                 Action Required

A.1.1, A.1.2,         FWS management           Based on the FWS response,
A.2.1, A.2.2,         concurs with the         additional information is
A.3.1, A.3.2,         recommendations,         needed in the corrective action
B.1, B.2, C,          but additional           plan, as listed in the Finding
D.1, D.2, and E       information is           and Recommendation section
                      needed, as outlined in   under OIG Comments. We
                      the “Actions             will refer the recommendation
                      required” column.        not resolved and/or
                                               implemented at the end of 90
                                               days (after October 6, 2011) to
                                               the Assistant Secretary for
                                               Policy, Management and
                                               Budget for resolution and/or
                                               tracking of implementation.




                                                                            17
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
